w w fw f.b k--w
             wr    .^^-     r   - T- - * --   -*p   -ldt-   f - -J
                                                            -   f -vv-                            A                  n JV



      DOE F 1325.8
      (08-93)
      United States Government
                                      -------                                                         Department of Energy
      memorandum
                  DATE:         June 15, 2006
         REPLY TO                                                            Audit Report Number: OAS-L-06-15
          ATTN      OF:         IG-32 (A05SR029)
         SUBJECT                Audit of "Storage Capacity of the Iligh
                                                                        Level Waste Tanks at the Savannah River

                  TO:           Manager, Savannah River Operations Office


                                INTRODUCTION AND OBJECTIVE
                              The Savannah River Site in South Carolina
                                                                           currently stores about 36 million
                              gallons of waste in 49 active underground
                                                                         storag,•    .ks.Twenty-two of these
                              .anks do not meet Environmcntal Protection A&-.y (EPA)
                                                                                            requirements
                                                                                                ybr           full
                             secondary containment and must be emptied and closed by 2022
                                                                                                 in accordance
                             with a closure schedule approved by the EPA and the 5oith Carolina Department
                             :' Health and Environmental Control. To date, leakcs hare been detected in 12 of
                             ,hese tanks. However, sufficient waste has been removed from these tanks such
                            "-at current volumes are maintained belowany known ledr sites. The remaining
                            27 tanks are compliant with the EPA requirements for.T1l secondary containment
                             sId leak detection and are used to support ongoin op erationss and maintain
                            contingency space. It is anticipated that the Savannah River Ste's continuing
                            ..perations will generate an average of about 2.2 milfio, i;"v
                                                                                         ''    os w e annually
                            -A:ough at least Fiscal Year (FY) 2013, which must be ,.;Jumefduced through
                           -"vaporation and stored in the underground waste sto      u ta.     To date, no leaks
                           have been detected in the 27 compliant tanks.

                           For off-normal or emergency situations involving
                           treatment, DOE Manual 435.1-1                      high level waste storage or
                                                            requires the Departmen, of Eergy
                                                                                                 (Department)
                           to maintain spare capacity with adequate capabilities to receive the largest
                                                                                                        volume
                          of waste contained in any one storage vessel, pretreatment facility, or treatment
                          facility. Our objective was to determine whether the Department is maintaining
                          adequate available storage space in its high level waste tanks to respond to
                          catastrophic failures.

                          CONCLUSIONS AND ORSERVATINS

                         We determined that the Department is taking the steps
                                                                                  necessary to maintain
                        available storage space in its high level waste tanks to respond to catastrophic
                        failures. As of January 2006, the Department had approximately 2 million gallons
                        of space available in 24 of its 27 compliant tanks to acommodatc newly


                                                                         1
U O/   L/U O     .n u   j   .J;' v    rna. .*40   4.      VPI          U   .VL£                         "»   n                 i VjUUX
                                                                                                                               W



                                       generated high level liquid waste resulting
                                      Department has maintained an additional from ongoing operations. Further, the
                                                                                   1.3 million gallons of space. This
                                      additional storage space is used as a contingency to respond
                                      emergency situations which could result                         to off-normal or
                                                                                 in a need to transfer waste and is capable
                                      of holding the waste from the largest storage
                                                                                      vessel. The Department is closely
                                      monitoring the available space in the tanks
                                                                                    and taking steps to optimize tank
                                      operations and achieve maxinmum space gain.

                                        While the Department is taking appropriate steps
                                                                                          to maintain adequate
                                       contingency space, there are no written contingency
                                       respond to unanticipated leaks fiom the               transfer procedures in place to
                                                                               primary tank to the annulus'. The    high
                                       level waste tanks at the Savannah River Site are operated
                                      issued by the South Carolina Department of                   under  a 993 permit
                                                                                    Health and Environmental Control
                                      which requires the permittee (currently Washington
                                      maintain contingency plans or emergency proceduresSavannah River Company) to
                                                                                              to respond to any known
                                      emergency situation with the potential to negatively impact
                                                                                                     human health or the
                                      environment. In1999, the Department identified a deficiency
                                                                                                       concerning
                                      Washington Savannah River Company's readiness
                                     transfer from a leaking tank. In response            to initiate an emergency
                                                                                to the deficiency, Washington Savannah
                                     River Company committed to prepare a leaking
                                                                                       tank transfer plan. However, the
                                     plan had not been completed &•      theD
                                                                          JI! Department condticted another review
                                     2003, resulting in a re-issuance o.:                                             in
                                                                        ithdeficiency.

                                  To address this deficiency, in October 2003, Washington
                                  Company initiated an effort to develop                     Savannah River
                                                                          written contingency transfer procedures
                                 annulus to tank transfers and procure necessary equipment ftor                     for
                                                                                                  a backup pumping
                                 system for completing such transfers in ease the
                                 inoperable. This effort is due to b- completed main pumping system is
                                                                                  by September 2006. Because of
                                previous delays in correcting this concern,
                                                                             we suggest that the Department closely
                                monitor Washington Savannah River Company's
                                                                                    progress to ensure that the effort
                                is on track for its September 2006 completion
                                                                                 date.
                                SCOPE AND METHODOLOGY

                               The audit was performed from September
                                                                           2005 through June 2006, at the
                               Department's Savannah River Site in Aiken,
                                                                              South Carolina. The scope of
                               the audit included a review of the Department's
                                                                                 ability to maintain adequate
                               available storage space in its high level
                                                                         waste tanks to respond to
                               catastrophic failures. To accomplish the audit
                                                                                objective, we:
                                          Obtained and reviewed documents relating
                                                                                       to actual and expected
                                          available storage space in the high level
                                                                                    waste'tanlks;




         Annulus as used in this report is defined as
                                                      the space betwecn the primary tank wall and
       the vault wall designed to collect any                                                     the metal lined portion of
                                               waste that may leak from the primary
                                                                                    rank.


                                                                   2
      S*            w   .        U   %2 *-l                      --
                                                                 -                  t M UU




           SReviewed the Department's current contract
                                                       with
             Savannah River Company to evaluate performanceWashington
                                                            measures relating
             to high level waste tanks; and

      *      Interviewed key Savannah River Operations Office
                                                              and Washington
             Savannah River Company personnel regarding
                                                         procedures for
             annulus to primary tank transfers.

   The audit was performed in accordance with generally
                                                            accepted Government
   auditing standards for performance audits and included tests of internal
   controls and compliance with laws and regulations
                                                       to the extent necessary to
   satisfy the audit objective. Accordingly, we assessed
                                                          performance measures
   established under the Government Performance
                                                    and Resulis Act of.1993 and
  found that the Department established performance
                                                        measures related to
  maintaining minimum available space in and reducing
  influents into the high level waste tanks. Because       the amount of
                                                      our review was limited, it
  would not necessarily have disclosed all internal
                                                    control deficiencies that
  may have existed at the time of our audit. In performing
                                                             this audit, we did
 not significantly rely on computcr-processed data
                                                     to accomplish the audit
 objective. Therefore, it was not necessary to conduct
 reliability of this data. The Savannah River Operationsan assessment of the
                                                            Office waived the
 exit conference on June 12, 2006.

We appreciate the cooperation of your staff during
                                                    our review. Because no
formal recommendations are being made
                                         in this report, a formal response is
not required.




                                          Fredrick G. Pieper, Director
                                          Energy, Science and Environmental
                                            Audits Division
                                          Office of Inspector General
cc: Chief of Staff
    Team Leader, Audit Liaison Team, CF-1.2
    Audit Liaison, Office of Environmental Management,
                                                       EM-33
    Audit Liaison, Savannah River Operations
                                             Office




                                3
